                            SOCIAL SECURITY
                            Office of the Inspector General

                                  September 30, 2010


The Honorable Kay Granger
House of Representatives
Washington, D.C. 20515

Dear Ms. Granger:

I am pleased to provide the enclosed report addressing your October 13, 2009 letter
requesting information related to the Social Security Administration’s (SSA) Consent
Based Social Security Number Verification (CBSV) program. Specifically, you
requested that the audit address the following issues.

•   The accuracy of CBSV’s underlying cost allocation and cost estimates, including
    why SSA elected to use a 3-year amortization schedule instead of a 5-year or longer
    schedule.
•   The timing and accuracy of SSA’s transaction projections.
•   Upfront enrollment fees paid by participants previously covered the program cost for
    the Social Security Number Verification Pilot for Private Businesses and Interim
    Verification Program. Why did SSA abandon this precedent for the CBSV program?
    Is SSA willing to reconsider this option once the costs of the CBSV program are
    established?

Thank you for bringing your concerns to my attention. The enclosed report highlights
various facts pertaining to the issues raised in your letter. To ensure SSA is aware of the
information provided to your office, we are forwarding a copy of this report to the Agency.

If you have any questions, please call me or have your staff contact Misha Kelly,
Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                Sincerely,



                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure
cc:
Michael J. Astrue

              SOCIAL SECURITY ADMINISTRATION      BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

The Social Security Administration’s
Cost Estimates for the Consent Based
Social Security Number Verification
              Program

            A-03-10-21060




            September 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                           Background
OBJECTIVE
Our objectives were to assess the (1) accuracy of the Consent Based Social Security
Number Verification (CBSV) program’s underlying cost estimates and allocation,
including the use of a 3-year amortization schedule and (2) timing and accuracy of
transaction projections. In addition, we determined whether the Social Security
Administration (SSA) recouped its costs for developing the Social Security Number
Verification Pilot for Private Businesses (Pilot) and Interim Verification Program (IVP).

BACKGROUND
In 2002, SSA developed a centralized automated process that could quickly assist
organizations and companies with Social Security number (SSN) verification for
non-program-related reasons and lessen the burden on field office resources to meet
the high demand for verification requests. To participate in the automated verification
program, users are required to sign a user agreement with the Agency, pay the required
fees, and obtain a valid signed consent form from each individual who is to be verified.
Since its inception, there have been three iterations of this verification program.

    Pilot (October 2002 through February 2005). The Pilot was both a manual and an
electronic SSN verification process. Although verification data were transferred to SSA
electronically via dial up or over the Internet, SSA employees had to manually complete
the verification process by organizing source files, submitting the files to the verification
process, and downloading and reporting the verification results to participating
companies. Four companies participated in the Pilot and were required to pay (1) a
registration fee of $40,000 to assist with the Agency’s start-up costs and (2) advanced
fees for their total estimated annual verification requests. SSA decreased the advanced
fees it charged participating companies over the nearly 3 years the Pilot was in
operation. In October 2002, SSA charged $0.06 per transmission 1 and $0.0047 per
verification request. In October 2003, the transmission fee increased to $0.12, while the
verification fee was reduced to $0.000113. By October 2004, SSA was no longer
charging a transmission fee, but was charging $0.000109 per verification request during
the Pilot.

    IVP (March 2005 through November 2008). IVP replaced the Pilot in March 2005.
From March 2005 until October 2007, the IVP required manual submission of
verification requests with consent forms via compact disc (CD). During this period, SSA
employees manually received, uploaded, and processed the CDs. Further, they had to
manually verify that each request included a valid consent form. SSA charged
companies a $77 one-time registration fee and a $157 transaction fee per CD

1
  Initially, the transmission cost was $0.26; however, in February 2003, the Agency retroactively reduced
the transmission fee to $0.06.


SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)                         1
submission to process verification requests. In November 2007, SSA required
electronic submissions of verification requests 2 and charged companies already
enrolled a registration fee of $246.66 and newly registered companies $281.16. The
cost for electronic submissions remained at $157. There were nine companies
(including the four original companies) registered for IVP.

   CBSV (November 2008 to present): CBSV, unlike the previous consent-based
verification programs, is a fully automated program that provides instant verification
responses and easily handles large volume requests. It is available to private
businesses and Federal, State, and local government agencies that need
consent-based client SSN verification. Participating companies who wish to register to
use CBSV must log onto SSA’s Business Services Online (BSO) 3 Website and
complete the registration process, see Appendix B for more detail. As part of this
process, SSA verifies the registering individual’s information with its records to ensure
the individual has a relationship with the participating company.

As of September 15, 2010, we found that 124 companies paid the registration fee to
participate in the CBSV program. However, since the program’s inception, only
60 companies have actively used CBSV by submitting SSN data for verification. These
companies were required to pay a registration fee of $5,000 and advanced fees for
each SSN verification request. Effective October 2009, the transaction fee per
verification request increased from $0.56 to $5.00.

METHODOLOGY
We reviewed cost data related to the three iterations of the consent-based SSN
verification program that covered the period October 2002 to September 2010.
Specifically, we analyzed data related to (1) registration, transmission, and verification
fees; (2) advance payment and refund information; and (3) system support and
personnel cost information. See Appendix C for additional information on our scope
and methodology.




2
 SSA created a secured Website, known as e-Data, for the electronic submission of verification requests
by the IVP companies.
3
    BSO is a suite of Internet services for businesses and employers to exchange information with SSA.


SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)                      2
                                                    Results of Review
Based on our review of financial records and other supporting documentation, we
determined the underlying costs (about $7.4 million) for developing the CBSV program
were generally valid and supported. Furthermore, the 3-year cost recovery model the
Agency used is consistent with Federal accounting standards, which allow costs to be
recovered over the useful life of the program.

With respect to the timing and accuracy of transaction projections, we found SSA
overestimated transaction projections for the first year of the CBSV program. The
transaction projections were based on estimates provided by participating companies.
In FY 2009, SSA estimated it would receive about 5.7 million verification requests from
participating companies, but it only processed about 875,000 (15 percent) requests.
However, for the second year (FY 2010), it appeared SSA was on target to meet its
projection. As of September 15, 2010, SSA had processed approximately 1.1 million
(92 percent) of the 1.2 million estimated transactions. Even though SSA’s transaction
projection was overstated during the first year of operation, the Agency has the potential
to recoup its costs within the 3 years because the 3-year recovery model allows for
adjustments to the transaction fee charged to participating companies when the actual
volume of transactions is less than anticipated. As to SSA reconsidering the increase of
the transaction fee from $0.56 to $5.00, we believe it would not be prudent given that
the Agency has yet to recover the $7.4 million in development costs for the CBSV
program. If SSA had not increased the transaction fee to $5.00, it would have
subsidized private enterprises with taxpayer dollars because the development costs
would not have been recovered within the useful life of the CBSV program.

We also looked at development costs for the two predecessor programs—Pilot and IVP.
We found that SSA had not recovered the full costs for developing and operating the
previous programs. Specifically, SSA did not recover approximately $294,000 in costs
for the two programs—about $116,000 for Pilot and $178,000 for IVP. However, the
Agency recognized the need to improve its cost recovery for SSN verification to private
companies and has taken the appropriate measures to ensure full cost recovery for the
CBSV program.

UNDERLYING COSTS FOR THE CBSV PROGRAM
SSA’s underlying costs for developing the CBSV program were generally valid and
supported. Our review of financial records and other supporting documentation found
that from October 2005 through January 2009, the Agency incurred about $7.4 million in
personnel, system, and contractor costs to develop the fully automated CBSV program
(see Table 1).




SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)      3
                           Table 1: CBSV Program Development Cost
                                      Types of Costs                   Amount
                          Personnel Cost for Operation/Policy           $665,004
                          Personnel Cost for Systems                  $2,507,451
                          Contractor Cost                             $4,256,855
                                                              Total   $7,429,310

Specifically, we found the following.

      •   SSA incurred about $665,000 in personnel costs for SSA staff to develop the
          initial CBSV user agreements, develop the CBSV policy, design the new system,
          and develop the enrollment and registration process for CBSV.

      •   SSA incurred about $2.5 million in personnel costs for SSA systems staff to
          develop the three modes of access and delivery options for CBSV. 4 In addition,
          systems staff developed the capability of using BSO to authenticate registered
          users and develop management information reports to track CBSV usage by
          users.

      •   SSA incurred about $4.3 million in contractor costs for work performed to include
          planning, development, testing/validation, implementation, post-release review,
          and maintenance of the CBSV application.

COST RECOVERY MODELS
The Social Security Act 5 and SSA’s fiscal policy 6 permit SSA to require that individuals
(including companies) requesting information pay the full cost of supplying that
information for any purpose not directly related to the administration of the programs
under the Social Security Act. These charges compensate SSA for its work, so the
Agency’s appropriation does not bear costs that are not directly related to the
administration of SSA programs.

To ensure full cost recovery for the CBSV program, SSA evaluated several cost
recovery models to determine the optimal approach. In 2005, SSA’s approach was to
recover its cost for developing the CBSV program within the first year of implementing
the program. At that time, SSA estimated the full cost would be about $7.2 million.
However, SSA realized this recovery model would require that the Agency charge a

4
 The three access modes are Real-Time Response Web Service, Real-Time Response Internet On-line,
and Batch File Process. See Appendix B for more details about the access modes.
5
    The Social Security Act § 1106(c), 42 U.S.C. § 1306(c).
6
 Administrative Instructions Manual System, Financial Management, Interagency and Reimbursable
Agreements, Authorizing and Accounting for Reimbursable Work, section 05.02.02B, Funding
Reimbursable Work.


SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)              4
$40,000 registration fee. Based on public comments from the December 2005 Federal
Register 7 announcement for CBSV and guidance from the Office of Management and
Budget, the Agency determined this high fee could have prohibited smaller, less
financially secure companies from participating in the verification program.

SSA elected to use a 3-year cost recovery model 8 because it allowed the Agency to
recoup the $7.4 million in development costs during the useful life of the program, as
permitted by the Federal Accounting Standards Advisory Board (FASAB), Statement of
Federal Financial Accounting Standards Number 10, Accounting for Internal Use
Software. 9 According to the Statement, software that is capitalized pursuant to this
standard should be amortized 10 in a systematic and rational manner over the estimated
useful life (normal operating life in terms of utility) of the software. The estimated useful
life used for amortization should be consistent with that used for planning the software’s
acquisition. In 2007, SSA determined the useful life of the CBSV program would be
3 years, which was consistent with the previous iterations of the consent-based
verification program. For instance, the Pilot was in operation for about 2.5 years
(October 2002 through February 2005) while the IVP was in operation for about
3.5 years (March 2005 through November 2008).

In addition, the 3-year cost recovery model appeared appropriate because it allowed the
Agency to charge a lower registration fee of $5,000, which would less likely deter small
to midsize companies from participating in the CBSV program. Additionally, the 3-year
cost recovery model permitted the Agency to adjust the transaction fee to accommodate
the recovery of additional costs.

In 2009, SSA reviewed options for recovering its costs for the CBSV program. The
options ranged from extending the full recovery period to 5 years and increasing the
transaction fee from $.56 to $3.41 to keeping the 3-year recovery period and increasing
the transaction fee from $.56 to $5.00 (see Table 2). Although the 5-year recovery
model would have allowed SSA to charge a lower transaction fee than the 3-year
recovery model, it would have led SSA to subsidize private enterprises with taxpayer
dollars because the development costs may not have been recovered within the useful
life of the CBSV program.



7
    Federal Register, Vol. 70, No. 250, 70 FR 77439, December 30, 2005.
8
 The 3-year recovery model spreads the development cost (that is, building the necessary computer
system and associated labor) over the number of transactions in the 3-year period.
9
  The statement provides accounting standards for internal-use software used by Federal entities. It
establishes accounting standards for the cost of software developed or obtained for internal use. This
includes software used to operate the Federal entity’s programs and software used to produce the entity’s
goods and services.
10
   Amortization is the gradual extinguishment of any amount over a period of time through a systematic
allocation of the amount over a number of consecutive accounting periods, FASAB, Accounting for
Internal Use Software, Statement of Federal Financial Accounting Standards Number 10, June 1998.


SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)                      5
          Table 2: Comparison of 3- and 5-Year Recovery Models For CBSV
                                      3-Year Recovery Model a         5-Year Recovery Model b
                                       FY 2009c        FY 2010d        FY 2009c        FY 2010d
      Costs Incurred
      Development Costs                $2,476,000     $2,476,000       $1,486,000     $1,486,000
      Operating Expense                $1,059,000     $1,170,000       $1,059,000     $1,170,000
      Carryover                                       $2,510,000                      $1,520,000
      Total Cost Incurred              $3,535,000     $6,156,000       $2,545,000     $4,176,000
      Fees Collected
      Verification Fees                  $490,000     $6,000,000         $490,000     $4,092,000
      Registration Fees                  $535,000                        $535,000
      Total Fees Collected             $1,025,000     $6,000,000       $1,025,000     $4,092,000
                                  e
      Amount Not Recovered             $2,510,000        $156,000      $1,520,000         $84,000
            Transaction fee              $0.56           $5.00           $0.56           $3.41
     Note a: For the 3-year recovery model, SSA expected to recover the $7.4 million in development
             costs within 3 years, recouping about $2.5 million in each year.
     Note b: For the 5-year recovery model, SSA expected to recover the $7.4 million in development
             costs within 5 years, recouping about $1.5 million in each year.
     Note c: For FY 2009, SSA actually processed about 875,000 verifications.
     Note d: For FY 2010, SSA projected that it would process about 1.2 million transactions.
     Note e: There are several factors that may affect the amount not recovered, such as a change in
             the number of transactions submitted for verification, number of companies using the
             program, and SSA’s operating expense.

RECOVERY OF CBSV PROGRAM DEVELOPMENT COSTS

We found SSA overestimated the transaction projections for the CBSV program for the
first year. In FY 2009, SSA estimated that it would receive about 5.7 million verification
requests from participating companies11 but it had only processed about 875,000
(15 percent) requests. However, it appeared SSA was on target to meet its projection
for the second year because it had processed 1.1 million (92 percent) of the 1.2 million
estimated transactions. In addition, the Agency has the potential to recoup its costs
within the 3-year recovery period because it has the flexibility to adjust the transaction
fee charged to participating companies when the actual volume of transactions is less
than anticipated.

In FY 2009, the first year of CBSV, SSA expected it would receive about $3.5 million in
registration and verification fees for processing 5.7 million verification requests at the
rate of $0.56 per request. The $3.5 million was to cover the $2.5 million in development

11
  For the first year of CBSV, SSA’s transaction projection was based on the number of verification
requests that the participating companies estimated they would submit to SSA.


SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)                    6
costs 12 and $1 million in operating costs. However, the Agency only received about
$1 million ($490,000 in transaction fees and $535,000 in registration fees) because
participating companies only submitted about 875,000 verification requests. This left a
$2.5-million shortfall that was not recouped (see Table 3).

In FY 2010, SSA estimated it needed to recoup approximately $6.2 million to cover the
$2.5 million in development costs, $1.2 million in annual operating costs, and
$2.5 million shortfall from FY 2009. Based on feedback from participating companies,
actual year-to-date usage figures, and the application of a growth factor, SSA estimated
it would process about 1.2 million verification requests in FY 2010. 13 Because CBSV is
a fee-per-transaction model, which spreads the costs of the program over the number of
transactions requested to ensure full cost recovery, SSA adjusts fees when the actual
volume of transactions is less than anticipated. In FY 2010, SSA increased the
transaction fee from $0.56 to $5.00, about an 800-percent increase, to recoup about
$6 million.

We found that, as of September 15, 2010, SSA had processed about 1.1 million
verification requests, totaling approximately $5.4 million, and received $85,000 in
registration fees (see Table 3). Therefore, it appeared SSA was on target to recoup
about $6 million by the end of FY 2010. The increase of the transaction fee from
$0.56 to $5.00 greatly contributed to SSA recovering its costs. Therefore, for FY 2011,
SSA should establish a transaction fee that will ensure the Agency recovers the
remaining $2.5 million in development costs; the annual operating costs, which are
estimated to be about $700,000; and any shortfalls from FY 2010.

                     Table 3: Actual Costs for CBSV (FYs 2009 – 2010)
                  Agency Costs Incurred Actual FY 2009 Actual FY 2010a
                  Costs Not Recovered     $2,510,000      $600,000
                  Transaction Fees         $490,000      $5,400,000
                  Registration Fees        $535,000        $85,000
                  Total                   $3,535,000     $6,085,000
                  Transaction fee           $0.56           $5.00
                 Note a: As of September 15, 2010.




12
  To recover the $7.4 million within the 3-year period, SSA would have to recoup about $2.5 million each
year.
13
   The participating companies indicated they would submit approximately 1 million verification requests in
FY 2010. SSA allowed for the possibility of growth in the program by adding a growth factor of 20 percent
to the 1 million. This resulted in the 1.2 million projected transactions.


SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)                      7
COST RECOVERY FOR THE PILOT PROGRAM AND IVP
Although permitted by the Social Security Act 14 and SSA’s fiscal policy, SSA did not
recover its full cost for developing and operating the Pilot and IVP. We found that SSA
did not recover approximately $294,000 in costs for the two programs—about $116,000
for Pilot and $178,000 for IVP.

         Table 4: Costs Incurred and Fees Collected for Pilot and IVP Programs
                                                               Pilot      IVP          Total
                                      a
           Agency Costs Incurred
           Development                                    $333,000      $291,000      $624,000
           Operating                                       $76,000      $609,000      $685,000
           Total Costs Incurred                           $409,000      $900,000    $1,309,000
           Fees Collecteda
           Registration                                   $160,000         $3,000     $163,000
           Verification and Other Fees                    $133,000       $821,000     $954,000
           Refunds                                                     ($102,000)   ($102,000)
           Total Fees Collected                           $293,000       $722,000   $1,015,000
           Amount Not Recovered                           $116,000      $178,000      $294,000
         Note a: Costs and fees were calculated using both estimated and actual data provided by the
         Agency.

PILOT PROGRAM

We found that SSA had not recouped all costs incurred for developing and operating the
Pilot. In June 2002, SSA recognized the need to provide SSN verification to private
companies. As a result, SSA developed the Pilot, which was made available to a
limited number of companies. Four participating companies submitted their verification
data to SSA electronically via dial up or over the Internet, and SSA employees manually
completed the verification process by organizing source files, submitting the files to the
verification process, and downloading and reporting the verification results to
participating companies. While the Pilot was in operation, SSA processed about
551,000 verification requests submitted by the 4 companies.

Our review of SSA’s financial records showed the Agency had incurred about
$409,000 in personnel and systems costs to develop and operate the Pilot, (see
Table 4). However, the Agency only collected about $293,000 15 in registration,
verification, and other fees from the four participating companies, representing


14
     The Social Security Act § 1106(c), 42 U.S.C. § 1306(c).
15
     See Appendix D for more details about the four participating companies.



SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)                    8
$160,000 in registration fees and $133,000 in verification and other fees.16 As a result,
SSA’s appropriation was not replenished by about $116,000 for the Pilot. The primary
reason SSA did not recoup these costs was that the Agency failed to recover the
development costs from the participating companies.

SSA estimated the development costs for the Pilot program at about $360,000 (the
actual cost was about $333,000) and expected that nine companies would participate in
the verification program. SSA required that each company pay $40,000 or one-ninth in
registration fees to cover the Agency’s start-up costs for the Pilot program. However,
through discussions with SSA staff as well as reviewing financial records, we found that
only four companies actually participated in the verification program, and each paid the
$40,000 registration fee. Therefore, SSA only collected $160,000 in registration fees,
falling short by $200,000.

We did not find evidence that SSA took steps to recover the outstanding development
costs by increasing the fees charged to participating companies as permitted by the
Pilot’s user agreements. 17 In fact, during the nearly 3 years the Pilot was in operation,
SSA decreased the fees charged to participating companies, further preventing the
Agency from recovering its development costs. As shown in Table 5, in October 2002,
SSA charged companies $0.06 for each transmission and $0.0047 for each individual
record to be verified. Although the transmission fee increased to $0.12 in October
2003, the verification fee was reduced to $0.000113 at the same time. By June 2004,
SSA had eliminated the transmission fee, but the verification fee remained at $.000113.
By October 2004, SSA once again reduced the verification fee to $0.000109 per
verification request.

                           Table 5: Pilot Program’s Transaction Fees
              Timeframe                                   Transaction Fees
                                             Transmission                Verification
          10/2002 – 09/2003              $0.06 per transmissiona       $0.0047 per verification
          10/2003 – 05/2004               $0.12 per transmission     $0.000113 per verification
          06/2004 – 09/2004                       Not applicable     $0.000113 per verification
          10/2004 – 02/2005                       Not applicable     $0.000109 per verification
     Note a: The transmission fee was initially $0.26 but SSA retroactively reduced the rate to $0.06.




16
  SSA erroneously provided the four companies with credits totaling $36,000 that were applied towards
the IVP. We discuss the issue in more detail in the IVP section of the report.
17
  The user agreements stated that costs related to providing services contemplated in this agreement will
be recalculated periodically, (annually at a minimum) and draw down charges (fees) will be adjusted
accordingly.


SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)                      9
IVP

SSA did not recoup all costs incurred for the IVP, which replaced the Pilot in
March 2005. Unlike the Pilot, the IVP required manual submission of verification
requests with consent forms via CDs. SSA employees had to manually receive, upload,
and process the CDs. Further, they had to manually verify that each request included a
valid consent form. In November 2007, SSA required electronic submissions of
verification requests. While the IVP was in effect, SSA processed about 1.8 million
verification requests submitted by 7 of the 9 participating companies.

Our review of SSA’s financial records showed the Agency incurred about $900,000 in
personnel and systems costs to develop and operate the IVP from March 2005 to
November 2008 (see Table 4). However, the Agency only collected about $722,000 18
in registration and verification fees from the nine participating companies. Therefore,
SSA’s appropriation was not reimbursed about $178,000 for the IVP. SSA did not
recoup these costs because it failed to collect about $55,000 in verification fees from
five companies, and it did not adjust fees charged to participating companies to recoup
the remaining $123,000.

Based on our review of submission and registration data, we determined that five of the
nine companies should have reimbursed SSA about $673,000 in registration and
verification fees (see Table 6). 19 These companies initially provided SSA with about
$585,000 in registration fees. SSA issued refunds totaling approximately $3,000 to
three of the five companies. In addition, we determined that SSA issued credits totaling
about $36,000 to four of the companies under the Pilot. SSA determined these
companies had a balance due from the Pilot ranging from $8,800 to $9,200 and applied
the balances to the IVP even though SSA had not recouped all costs incurred for the
Pilot. Because of the refunds and credits, SSA only collected about $618,000 from the
five companies, leaving $55,000 still owed to the Agency.




18
  Initially, SSA collected about $824,000 in fees from the nine participating companies. However, the
Agency issued refunds totaling $102,000 to seven of the participating companies. Of the seven
companies, two received a total of $42,000 in refunds because they decided not to participate in the IVP,
two received a total of $57,000 in refunds because they submitted fewer verification requests than
estimated, and three received refunds totaling $3,000 even though they did not reimburse SSA for all
their submissions. See Appendix E for more details about the nine participating companies.
19
  To determine the amount the five companies should have reimbursed SSA, we multiplied the total
submissions for each company by the $157 submission rate and added the registration fees. For
example, Company 1 owed $147,276, which was derived by multiplying 936 submissions by the
$157 verification rate and adding $324 in registration fees.


SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)                    10
                 Table 6: Summary of Uncollected Verification Fees
                   Fees                            Net Fees                     Fees
    Company      Collected Refunds       Credits   Collected   Fees Owed     Uncollected
   Company 1      $126,800    ($1,100)    $9,200   $134,900       $147,300        $12,400
   Company 2      $124,100    ($1,000)    $9,200   $132,300       $144,800        $12,500
   Company 3      $128,000      ($900)    $9,100   $136,200       $148,500        $12,300
   Company 4      $122,500                $8,800   $131,300       $148,100        $16,800
   Company 5       $83,700                          $83,700        $84,300           $600
        Total     $585,100    ($3,000) $36,300     $618,400       $673,000        $54,600

We believe that if SSA properly tracked and monitored the costs for the IVP, the Agency
would have realized it needed to adjust its verification fees to recoup the
$178,000 shortfall. The user agreements signed by participating companies permitted
SSA to adjust the fees charged to ensure that the Agency recouped all costs incurred
for the IVP. Specifically, the agreement stated, “Periodically, but no less frequently than
annually, SSA will recalculate its costs related to providing the services in this
agreement and will adjust the fees charged accordingly.” We found that SSA did not
take steps to adjust the verifications fees during the period that IVP was in operation.




SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)         11
                                                                 Conclusions
Based on our review of SSA’s records, we found that the Agency’s underlying costs for
developing the CBSV program were generally valid and supported. SSA incurred about
$7.4 million in costs to develop the fully automated CBSV program. Furthermore, the
3-year recovery model the Agency selected to ensure full cost recovery for the CBSV
program was appropriate because it allowed SSA to recover its development and
operating costs during the useful life of the program. In addition, we found SSA
overestimated the transaction projections for the first year of the CBSV program.
However, for the second year, it appeared SSA was on target to meet its projections
because it processed about 92 percent of the estimated transactions. Even though
SSA’s transaction projection was overstated during the first year of operation, the
Agency has the potential to recoup its costs within the 3 years because the 3-year
recovery model allows adjustments to the transaction fee charged to participating
companies when the actual volume of transactions is less than anticipated.

Finally, we found that the Agency did not recover all costs incurred for the two
predecessor programs—Pilot and IVP. Specifically, SSA did not recover approximately
$294,000 in costs for the two programs—about $116,000 for Pilot and $178,000 for IVP.
Although the Agency did not recover all costs for Pilot and IVP, SSA indicated it expects
to recover all of the estimated expenses associated with the CBSV program.




SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)    12
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Business Services Online
APPENDIX C – Scope and Methodology
APPENDIX D – Social Security Number Verification Pilot for Private Businesses
             Participating Companies
APPENDIX E – Interim Verification Program Participating Companies




SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)
                                                                         Appendix A

Acronyms
 BSO                 Business Services Online

 CBSV                Consent Based Social Security Number Verification

 CD                  Compact Disc

 FASAB               Federal Accounting Standards Advisory Board

 FY                  Fiscal Year

 IVP                 Interim Verification Program

 MOU                 Memorandum of Understanding

 Pilot               Social Security Number Verification Pilot for Private Businesses

 SSA                 Social Security Administration

 SSN                 Social Security Number

 U.S.C.              United States Code

 Forms
 Form SSA-1033       Estimated Cost for Negotiating Reimbursable Services
 Form SSA-1036       Actual Cost for Reimbursable Services
 Form SSA-1235       Agreement Covering Reimbursable Services




SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)
                                                                         Appendix B

Business Services Online
Participating companies who wish to register to use the Consent Based Social Security
Number Verification (CBSV) program must log onto the Social Security Administration’s
(SSA) Business Services Online Website and complete the registration process. As
part of this process, SSA verifies the individual’s information with its records to ensure
the individual has a relationship with the participating company. Participating
companies have three ways of connecting to CBSV.

•   Real-Time Response Web Service: This option was designed to support
    interoperable machine-to-machine interaction over the Internet. It provides
    instantaneous responses and handles large volumes easily.

•   Real-Time Response Internet On-line: This option allows companies to request
    verification of up to 10 names and Social Security numbers at 1 time and receive
    instantaneous results.

•   Batch File Process: This option allows companies to submit their requests through
    an overnight batch submission.




SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)    B-1
                                                                                      Select the
                                                                                       Register
                                                                                        Button




SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)        B-2
                                                                         Appendix C

Scope and Methodology
To accomplish our objective, we:

   •   Reviewed applicable Federal laws and sections of the Social Security
       Administration’s (SSA) regulations, policies, and procedures.

   •   Reviewed Office of the Inspector General reports and other relevant documents.

   •   Reviewed SSA’s Administrative Instructions Manual System.

   •   For SSA’s Social Security Number Verification Pilot for Private Businesses, we
       obtained

          o a list of registered companies;
          o documentation for registration, transmission, and verification fees;
          o advance payment and refund information;
          o system support and personnel cost information;
          o support for development costs;
          o copies of the Estimated Cost for Negotiating Reimbursable Services
            (Form SSA-1033);
          o copies of the Agreement Covering Reimbursable Services
            (Form SSA-1235);
          o copies of the Actual Cost for Reimbursable Services
            (Form SSA-1036); and
          o copies of Memorandums of Understanding (MOU).

   •   For the Interim Verification Program, we obtained

          o   a list of registered companies;
          o   documentation for registration and verification fees;
          o   advance payment and refund information;
          o   system support and personnel cost information;
          o   support for development costs;
          o   copies of Form SSA-1033;
          o   copies of Form SSA-1235;
          o   copies of Form SSA-1036; and
          o   copies of MOUs.




SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)   C-1
   •   For the Consent-Based Social Security Number Verification program, we
       obtained

          o   a list of registered companies;
          o   documentation for registration and verification fees;
          o   advance payment and refund information;
          o   system support and personnel cost information;
          o   support for development costs; and
          o   copies of Cost Analysis System Report.

We conducted our audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested the data obtained for our audit
and determined the data were sufficiently reliable to meet our objective. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective. The entities audited were the Offices of Public Service and
Operations Support under the Deputy Commissioner for Operations, Systems Electronic
Services under the Deputy Commissioner for Systems, and Financial Policy and
Operations under the Deputy Commissioner for Budget, Finance and Management. We
conducted the audit between November 2009 and September 2010 in Philadelphia,
Pennsylvania.




SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)   C-2
                                                                               Appendix D

Social Security Number Verification Pilot for
Private Businesses Participating Companies
In June 2002, the Social Security Administration (SSA) recognized the need to provide
Social Security number verification to private companies. As a result, SSA developed
the Social Security Number Verification Pilot for Private Businesses (Pilot) program,
which was made available to a limited number of companies. Four companies
participated in the Pilot and were required to pay a registration fee of $40,000 to assist
with the Agency’s start-up costs as well as pay advance fees for their total estimated
annual verification requests. While the Pilot program was in operation, SSA processed
about 551,000 verification requests for the four companies and collected about
$293,000 in fees (see Table D-1).

                    Table D-1: Review of Pilot Program Participants
                               Fees Collected                       Verification Data
                                                                 Total            Total
    Company       Registration Verification         Total     Submissionsa Verificationsb
  Company 1         $40,000         $33,900       $73,900          1,512             309,112
  Company 2         $40,000         $41,700       $81,700           890               98,340
  Company 3         $40,000         $28,800       $68,800          2,921              50,682
  Company 4         $40,000         $28,400       $68,400          1,427              93,152
       Total        $160,000        $132,800      $292,800         6,750             551,286
 Note a: After May 2004, SSA did not track the number of submissions because the Agency no longer
         charged a transmission fee.
 Note b: In October 2002, SSA charged $0.06 per transmission and $0.0047 per verification request. In
         October 2003, the transmission fee increased to $0.12 while the verification fee reduced to
         $0.000113. By October 2004, SSA only charged $0.000109 per verification request during the
         Pilot program.




SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)
                                                                                 Appendix E

Interim Verification Program Participating
Companies
In March 2005, the Interim Verification Program (IVP) replaced the Social Security
Number Verification Pilot for Private Businesses (Pilot) program. From March 2005 until
October 2007, the IVP program required manual submission of verification requests
with consent forms via compact disc (CD). During this period, Social Security
Administration (SSA) employees had to manually receive, upload, and process the CDs.
Further, they had to manually verify that each request included a valid consent form.
SSA charged companies a one-time registration fee of $77 and a transaction fee of
$157 per CD submission to process verification requests. In November 2007, SSA
required electronic submission of verification requests 1 and charged companies already
enrolled a registration fee of $246.66 and newly registered companies $281.16. The
cost for electronic submissions remained at $157. There were nine companies
(including the four original companies) registered for this program. While the IVP
program was in operation, SSA processed about 1.8 million verification requests for 7 of
the 9 participating companies and collected about $758,000 in fees, after issuing about
$102,000 in refunds and applying about $36,000 in credits to the companies (see
Table E-1).




1
 SSA created a secured Website, known as e-Data, for the electronic submission of verification requests
by the IVP companies.


SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)                 E-1
                                          Table E-1: Review of IVP Program Participants
                                                Fees Collected                                             Verification Data
                   Total          Total                                                Amount
                 Fees Due         Fees                                 Net Fees         Under           Total            Total
  Company          SSA a        Collected      Refunds      Credits    Collected         Paid        Submissions     Verifications
 Company 1b        $147,300      $126,800        ($1,100)    $9,200      $134,900        $12,400           936           1,214,837
 Company 2b        $144,800      $124,100        ($1,000)    $9,200      $132,300        $12,500           920             102,902
             b
 Company 3         $148,500      $128,000          ($900)    $9,100      $136,200        $12,300           944             153,889
             b
 Company 4         $148,100      $122,500                    $8,800      $131,300        $16,800           941             311,701
 Company 5          $84,300        $83,700                                $83,700           $600           535                 4,193
             c
 Company 6                         $11,700     ($11,700)
             c
 Company 7                         $30,300     ($30,300)
 Company 8         $106,300      $118,300        ($9,800)                $108,500     See note d           675              27,770
 Company 9          $28,900        $78,300     ($47,000)                  $31,300     See note d           182                 7,439
                                                                                                 e
         Total     $808,200      $823,700     ($101,800) $36,300         $758,200       $54,600          5,133           1,822,731
Note a: The amount of total fees due to SSA was based on fees remaining at $157 per submission during the period IVP was in operation.
Note b: These four companies participated in the Pilot program.
Note c: These two companies received full refunds because they decided not to participate in the IVP program.
Note d: While it appeared that Companies 8 and 9 may have overpaid SSA for their verification submissions, we do not believe SSA should have
        reimbursed these companies because it did not recoup its full costs for the IVP program.
Note e: This figure does not include the overpayments for Companies 8 and 9.




SSA’s Cost Estimates for the Consent Based SSN Verification Program (A-03-10-21060)                                                    E-2
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
